<html>
<title> - NOMINATION OF MICHAEL D. BROWN</title>
<body><pre>[Senate Hearing 107-616]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-616
 
                     NOMINATION OF MICHAEL D. BROWN
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATION OF MICHAEL D. BROWN TO BE DEPUTY DIRECTOR OF THE FEDERAL 
                      EMERGENCY MANAGEMENT AGENCY

                               __________

                             JUNE 19, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs






                       U. S. GOVERNMENT PRINTING OFFICE
81-311                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Susan E. Propper, Counsel
                Jennifer E. Hamilton, Research Assistant
              Richard A. Hertling, Minority Staff Director
                   Johanna L. Hardy, Minority Counsel
                Jana C. Sinclair White, Minority Counsel
                     Darla D. Cassell, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Bunning..............................................     5
    Senator Akaka................................................     5
    Senator Bennett..............................................    14

                               WITNESSES
                        Wednesday, June 19, 2002

Hon. Ben Nighthorse Campbell, a U.S. Senator from the State of 
  Colorado.......................................................     1
Hon. Wayne Allard, a U.S. Senator from the State of Colorado.....     2
Michael D. Brown, to be Deputy Director of the Federal Emergency 
  Management Agency (FEMA).......................................     8

                     Alphabetical List of Witnesses

Allard, Hon. Wayne:
    Testimony....................................................     2
Brown, Michael D.:
    Testimony....................................................     8
    Biographical and professional information....................    17
    Pre-hearing questions and responses..........................    62
    Questions for the Record and responses.......................    95
Campbell, Hon. Ben Nighthorse:
    Testimony....................................................     1


                     NOMINATION OF MICHAEL D. BROWN

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:37 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Bunning, and Bennett.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I 
apologize to everyone here that I am a bit late. One of those 
phone calls came in as I was heading out of the office.
    I wonder if my colleagues up here, Senator Bunning and 
Senator Akaka, would mind if we yielded to the introducers 
first since the two of you may have to go on to other matters. 
We are delighted to welcome you here. Who is senior, or do you 
care?
    Senator Campbell. Does it go by age, Mr. Chairman? 
[Laughter.]
    Chairman Lieberman. Yes. Well, you have gray hair. 
[Laughter.]
    Is it OK if we start with him?
    Senator Allard. Mr. Chairman, I ask to vote alphabetically, 
but he has got seniority.
    Chairman Lieberman. OK. Senator Campbell.

STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, A U.S. SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Campbell. Thank you, Mr. Chairman. It is an honor 
and a pleasure to introduce to the Committee today an 
outstanding gentleman who has been nominated to serve as the 
Deputy Director for the Federal Emergency Management Agency, 
Michael Brown.
    As my colleagues know, FEMA has played a very important 
role in Colorado in recent weeks, as well as throughout many of 
the Western States faced with the catastrophic wildfires that 
we face. In Colorado, as an example, we have lost over 200,000 
acres this summer alone to forest fires. FEMA and people like 
Mr. Brown have been serving the State, the country, and indeed, 
all of us as citizens in their capacity within that agency 
steadfastly and tenaciously.
    FEMA has been there non-stop to help our States in terms of 
floods, earthquakes, tornadoes, and all kinds of natural 
disasters. But beginning this year alone, Colorado has received 
11 fire management assistance grants from FEMA. For my part, 
and certainly on behalf of the people of Colorado, I need to 
thank Mr. Brown for that dedication. It is going to be a long, 
hot, dangerous summer, and I am sure that FEMA will always be 
there as friends and good public servants.
    Wildfires aside, we are here today to talk about Mr. 
Brown's appointment to serve as the Deputy Director. Mr. Brown 
was first appointed to serve as the FEMA General Counsel in 
February 2001, and then as Acting Deputy Director in September, 
where he served as the Chairman of the Consequences Management 
Working Group. As FEMA's General Counsel, Mr. Brown is both the 
principal legal advisor to FEMA's Director Joe Allbaugh and the 
head of the Office of General Counsel. Not only does he provide 
legal advice to the Director, but he and his staff of 
approximately 30 attorneys provide legal services to all of 
FEMA's programs and support offices and they also represent the 
agency in litigation.
    Prior to his current job, from 1991 to 2000, Mr. Brown was 
the Commissioner of the International Arabian Horse 
Association, an international subsidiary of the National 
Governing Organization of the U.S. Olympic Committee. In his 
position there, he created ethical programs, enforcement 
policies and procedures, conducted investigations, and 
prosecuted fraud and corruption cases.
    Before that, he served as General Counsel of Dillingham 
Insurance, Suits Drilling, Suits Rig, and Latigo Energy, in 
addition to Dillingham Ranch and Dillingham Enterprises. 
Earlier positions included 8 years in private practice, 2 years 
as an advisor to the Oklahoma State Senate's Finance Committee, 
and 3 years as Public Administrator for Edmond, Oklahoma, where 
he co-founded joint public-private partnerships for economic 
development.
    Mr. Chairman, I cannot state firmly enough that I believe 
Michael Brown to be more than qualified to serve FEMA and the 
people of this country as part of the administration. He is 
dedicated, tenacious, and he is exactly the type of individual 
who has given up probably a better lifestyle to be in public 
service and we certainly appreciate all of that.
    Thank you, Mr. Chairman.
    Chairman Lieberman. We can certify to that final 
statement---- [Laughter.]
    And everything else you said, too. Thanks, Senator 
Campbell.
    Senator Allard.

 STATEMENT OF HON. WAYNE ALLARD, A U.S. SENATOR FROM THE STATE 
                          OF COLORADO

    Senator Allard. Mr. Chairman, it is good to see you this 
morning. I think this is the first time I have had an 
opportunity to appear before your Committee.
    Chairman Lieberman. It is a pleasure to have you here. 
Thank you.
    Senator Allard. I want to join my colleague from Colorado, 
Senator Ben Nighthorse Campbell, in strongly endorsing 
President Bush's nominee for Deputy Director of the Federal 
Emergency Management Agency, otherwise known as FEMA.
    Undoubtedly, everyone in this room is well aware by now of 
the serious wildfire situation that we have in the State of 
Colorado. I would just point out after the comments made by my 
colleague that it is important that we move forward 
expeditiously on this nomination because this is the fire 
season throughout the entire Rocky Mountain region, although I 
think that Colorado is probably more heavily impacted than any 
other State in the Rocky Mountain region.
    I am pleased to know that Michael D. Brown has the 
opportunity to serve as Deputy Director of FEMA because he is a 
Coloradan. He holds a Bachelor of Arts in Public Administration 
and Political Science from Central State University in 
Oklahoma. He got his Juris Doctorate from Oklahoma City 
University School of Law. He has also served as an adjunct 
professor of law for the school.
    He was appointed as FEMA's General Counsel by President 
Bush in February 2001 and consequently appointed as Acting 
Deputy Director for the agency. As FEMA's General Counsel, he 
served as the principal legal advisor to the Director, led a 
staff of 30 attorneys, and provided legal services to all of 
FEMA's program and support offices. He also represented the 
agency in litigation matters.
    As Acting Deputy Director, Mr. Brown serves as Chief 
Operating Officer for the agency and helps the Director oversee 
the activities of the agency. He offers the agency many years 
of professional experience. I think that is extremely important 
and I believe it will serve the agency well, especially when 
faced with the serious situations that call for the agency's 
response.
    In the past, he served as a hearing officer for the 
Colorado and Oklahoma Supreme Courts, and as a special 
prosecutor appointed by the Police Civil Service Commission in 
internal affairs.
    Mr. Brown, I believe, is a person of integrity. He has 
served as a bar examiner on ethics and professional 
responsibility. He also served as commissioner for an 
international sports and trade federation, during which time he 
created ethical programs, enforcement policies, and conducted 
investigations and prosecuted fraud and corruption cases. I 
believe that Mr. Brown has valuable experience and familiarity 
with insurance law, energy issues, land use, and environmental 
law, practical skills that have and will serve him well at 
FEMA.
    Mr. Brown brings strong family values to this job. He lives 
in a community not far from where I live known as Longmont, 
Colorado. He is a Coloradan. He has lived there for 11 years. 
He has two children, Amy and Jared and he travels back to 
Colorado almost every weekend, as I do. I can understand the 
difficulty of flying all the time as official duties permit.
    Again, I thank the Committee for allowing me the 
opportunity to introduce Michael D. Brown. I wish to 
congratulate the Committee for acting on this nomination 
expeditiously. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Allard.
    Mr. Brown, you are off to a good start with two strong 
statements of endorsement. I am going to put my opening 
statement in the record.
    [The prepared opening statement of Chairman Lieberman 
follows:]
            PREPARED OPENING STATEMENT OF SENATOR LIEBERMAN
    Good morning. Welcome to you, Mr. Brown, and also to your wife, 
Tamara.
    We are here this morning for the nomination hearing of Michael 
Brown to become Deputy Director of the Federal Emergency Management 
Agency--a government agency under much discussion these days, as we 
begin to reorganize government to better protect our citizens from 
terrorist attacks here at home. If, and I hope when, the Department of 
Homeland Security comes into existence, FEMA will be folded into the 
Department; we must ensure that the agency is equipped to function at 
the highest level today, and equipped to make the transition into the 
new department without losing a step tomorrow.
    Responding to terrorist attacks, of course, is just one piece of 
FEMA's mission. Recent floods in Minnesota and crippling forest fires 
in Colorado have reminded us of FEMA's critical, often life-saving role 
in helping Americans protect themselves from and recover from natural 
disasters. My state of Connecticut was grateful for the assistance FEMA 
provided in 1999 to aid recovery from Tropical Storm Floyd. And more 
recently, the agency has assisted scores of fire departments and 
companies in my state of Connecticut--including Stonington, Oakdale, 
West Haven, Allington, Danbury, Bethel and Farmington, to name a few--
with funds to purchase protective equipment, fire prevention programs, 
and fire trucks.
    But because, by creating the Department of Homeland Security, we 
are in the throes of making such an important decision that will affect 
FEMA's historic and future responsibilities, I'd like to focus today on 
the agency's role as the lead federal agency responding to terrorist 
attacks. Based on a series of hearings on homeland security the 
Governmental Affairs Committee held last fall, it is crystal clear to 
me that effective coordination among and between layers of government 
is the crux of all quick and effective terror response. Therefore, FEMA 
must be an absolutely dependable link in that communications chain. It 
must ensure that the Federal Government's entire emergency response 
network is a well-honed machine, and then that the Federal, state and 
local governments are just as well coordinated with one another. This 
is an immense challenge that FEMA has yet to meet.
    I am glad the President has nominated someone already familiar with 
FEMA's mission to become Deputy Director. Mr. Brown is currently 
General Counsel and Chief Operating Officer of the agency, a position 
he has held since February of 2001. Before joining the Bush 
Administration, I note from his resume, he served as executive director 
of the Independent Electrical Contractors in Denver. In the early 
1980s, Mr. Brown served as staff director of the Oklahoma Senate's 
Finance Committee, while serving on the Edmund, Oklahoma, City Council. 
He ran for Congress in the sixth district, and, in what I think is 
particularly useful experience, early in his career, was assistant city 
manager in Edmond, with responsibility for police, fire and emergency 
services.
    As I have said, since September 11th, FEMA has taken on new 
responsibilities of the highest priority, in addition to its 
traditional and critical role of responding to natural disasters. 
Although the agency received generally good reviews on its performance 
in the wake of the September 11th attacks, some have criticized FEMA's 
limited assistance payments to families in New York, its failure to 
fully reimburse New York City for higher-than-expected police security 
costs, and its inadequate consultation with state and local groups 
outside of emergency management personnel.
    In addition, the Administration's budget calls for a $3.5 billion 
increase for state and local preparedness. That new funding is welcome. 
At the same time, we should understand that for the money to be 
effectively spent, the agency will have to undergo a thorough 
assessment of its operations and organizational structure.
    Mr. Brown, you have extensive management experience. For this job, 
you will need it. You will need to redouble FEMA's strengths, 
strengthen its weaknesses, and work with the reorganization effort to 
allow a seamless transition that only enhances our government's 
emergency response network.
    In 1940, President Franklin Roosevelt said, ``We will harness and 
speed up the use of the material resources of this nation in order that 
we ourselves in the Americas may have equipment and training equal to 
the task of any emergency and every defense.''
    That is once again our challenge and our opportunity today. I hope 
together we are up to the task.

    Chairman Lieberman. I will say for the record that Mr. 
Brown has submitted responses to a biographical and financial 
questionnaire, has answered pre-hearing questions submitted by 
the Committee and additional questions from individual 
Senators, and has had his financial statement reviewed by the 
Office of Government Ethics. Without objection, this 
information will be made part of the hearing record, with the 
exception of the financial data, which is on file and available 
for inspection in the Committee's offices.
    In addition, the FBI file has been reviewed by Senator 
Thompson and me pursuant to Committee rules.
    Senator Bunning, would you like to make an opening 
statement?

              OPENING STATEMENT OF SENATOR BUNNING

    Senator Bunning. Thank you, Mr. Chairman. As we all know, 
FEMA provides America with vital services during some of the 
most difficult moments. In fact, so far this year, Kentucky has 
three times experienced severe flooding, and yesterday, we had 
an earthquake. The epicenter was in Evansville, Indiana, and 
affected Western Kentucky. Can you imagine Kentucky with an 
earthquake? So we have used the services of FEMA at least three 
times in these last few months. In all instances, FEMA was 
ready to provide the needed support to help my State, and I 
appreciate their hard work.
    As we all know, earlier this month, President Bush 
announced his proposal to create a new Department of Homeland 
Security, which will be responsible for keeping all Americans 
safe inside our borders. It may be the biggest undertaking by 
the Federal Government and will require cooperation, 
dedication, and hard work from Federal employees, Congress, and 
the administration.
    One of the agencies the President has proposed moving into 
the new Department is FEMA, and today, our Committee has the 
pleasure of considering the nomination of Michael Brown to be 
Deputy Director of FEMA. Since Mr. Brown is already serving as 
Chief Operating Officer and General Counsel to FEMA, I suspect 
he is already familiar with the agency's strengths and 
weaknesses and I am looking forward to gaining his perspective 
on future changes to FEMA. I also hope that he has some 
suggestions for us, since this Committee will be primarily 
responsible for creating the new Department in the Senate.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Bunning. Senator 
Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Brown, aloha and welcome to this Committee. Since you 
and I met a month ago, it seems that the nature of the position 
to which you have been nominated has changed dramatically. I 
also want to say welcome to anyone you have with you. Do you 
have any members of your family here you wish to introduce?
    Mr. Brown. Yes.
    Senator Akaka. Can you introduce them?
    Mr. Brown. My wife, Tamara.
    Senator Akaka. Thank you for supporting him at this 
hearing. I also want to thank my colleagues, Senator Allard and 
Senator Campbell, for their introduction.
    Mr. Chairman, the President's proposal for a new Department 
of Homeland Security includes FEMA. I hope, Mr. Chairman, since 
you have led the Senate with your bill establishing the 
Department of Homeland Security, that we can explore how this 
new role will affect the agency's traditional mission.
    Many of the agencies impacted by this proposal, including 
FEMA, have a number of core responsibilities unrelated to 
homeland security missions. Most of what FEMA does every day, 
and what Americans expect FEMA to do, does not fall under the 
description of homeland security. An example is when FEMA 
partnered with local and State agencies to help residents on 
the Island of Hawaii in the wake of tropical storms and 
flooding last year. It is the dedicated men and women who 
formed--as I would like to call them the FEMA family--who 
continue to build on these relationships and provide Federal 
assistance to those most in need.
    Every State in the Union, including Hawaii, works with FEMA 
on mitigation to lessen the impact of future disasters. These 
efforts are all-hazard and will help communities respond to 
floods and terrorist attacks. However, there are those in the 
administration who have criticized mitigation efforts and have 
questioned their cost and benefit. I believe that Mr. Brown and 
Director Allbaugh appreciate the importance of disaster 
mitigation. Unfortunately, traditional cost-benefit analysis is 
not appropriate for mitigation programs and OMB has failed to 
give FEMA guidelines on what factors will be used in the 
future.
    I am concerned that these same problems will haunt the new 
Homeland Security Department. What factors will OMB use to 
determine the effectiveness of different homeland security 
programs? Mr. Chairman, I hope that Governor Ridge will shed 
some light on this when he appears before us tomorrow.
    The Deputy Director will be responsible to ensure that 
FEMA's core functions are not neglected.
    Over the past decade, FEMA has regained the confidence of 
local and State emergency managers. Individuals and families 
rely on FEMA when their lives are torn apart by natural 
disasters. I believe confidence and trust are among America's 
most important assets in our struggle to make our community 
safer and more secure. FEMA has expanded its responsibilities 
towards this.
    Mr. Brown, again, I want to say thank you for your 
dedication and your willingness to serve our Nation. You have a 
tough road ahead. If we are to use the parallel between this 
reorganization and the creation of the Department of Defense in 
1947, we must remember that it took years, even decades, to 
shape a truly integrated armed forces. Unfortunately, we do not 
have years to reshape how our country prepares for terrorism.
    Thank you very much, Mr. Chairman, and I ask unanimous 
consent that my longer statement be placed in the record.
    Chairman Lieberman. Thanks, Senator Akaka. Without 
objection, it will be placed in the record.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    I wish to welcome our nominee to the Committee. Since you and I met 
a month ago, it seems that the nature of the position to which you have 
been nominated has changed dramatically.
    The President's proposal for a new Department of Homeland Security 
will include Federal Emergency Management Agency (FEMA). A key question 
is how will this new role for FEMA in Homeland Security affect its 
traditional mission?
    There is already a Federal Response Plan that does what the 
President says the new Department will do, that is, ``the Homeland 
Security Department will integrate the Federal interagency emergency 
response plans into a single comprehensive, government-wide plan.'' 
Since 1992, a Federal Response Plan has managed the activities of 26 
Federal agencies and the Red Cross during all phases of a disaster, 
including readiness, response, recovery, and mitigation. In 1999, FEMA 
published the second edition of the Federal Response Plan Terrorism 
Incident Annex.
    When necessary, FEMA has made agreements with specific government 
agencies to address terrorism. In January 2001, FEMA and the Department 
of Justice released an Interagency Domestic Terrorism Concept of 
Operations Plan (CONPLAN). FEMA is currently working with the 
Catastrophic Disaster Response Group (CDRG), made up of representatives 
of all Federal agencies, to update the Federal Response Plan in light 
of the lessons learned from September 11. These changes are to be 
integrated with the national strategy for homeland security, on which 
Governor Ridge has spent the past eight months working.
    I hope the proposed department will build on all the different 
plans and agreements already in place. We do not need a brand new 
coordination plan. What we need is better communication and 
implementation of the plans we have.
    The President and his staff compare this reorganization to the 
creation of the Department of Defense after World War II. However, 
there are many differences. The Departments of the Navy and the Army 
shared the primary mission of defending the United States. They were 
both military departments with similar cultures and management 
priorities.
    In contrast, many of the agencies impacted by this proposal, 
including FEMA, have a number of core responsibilities unrelated to 
their homeland security missions. Most of what FEMA does every day, and 
what Americans expect from FEMA, does not fall under the description of 
homeland security.
    Homeland security is strengthened through developing assets that 
are built day-by-day and community-by-community. These assets include 
well-trained firefighters and law enforcement officers, well-equipped 
medical personnel, and well-exercised emergency response drills.
    An example is when FEMA partnered with local and state agencies to 
help residents on the Island of Hawaii in the wake of tropical storms 
and flooding last year. It is the dedicated men and women who form the 
FEMA family who continue to build on these relationships and provide 
Federal assistance to those most in need. Just this year, FEMA assisted 
flood victims in West Virginia, Kentucky, and Illinois and is working 
with communities devastated by wildfires in Colorado and New Mexico.
    Every state in the Union, including Hawaii, works with FEMA to 
include disaster mitigation when rebuilding after an event. Cities and 
counties across the country are working with FEMA to lessen the impact 
of future natural disasters through mitigation programs.
    These efforts are all-hazard and will help communities respond to 
floods and terrorist attacks. However, there are those in the 
Administration who have criticized mitigation efforts and have 
questioned their cost and benefit.
    FEMA's pre-disaster mitigation program was eliminated in the 
President's 2002 budget because it was deemed ineffective by the Office 
of Management and Budget. Congress disagreed and saved the $25 million 
program only to see the Administration's FY03 budget proposal seek to 
eliminate FEMA's post-disaster mitigation program, which was also 
judged ineffective by OMB.
    I believe that Mr. Brown and Director Allbaugh appreciate the 
importance of disaster mitigation. Unfortunately, traditional cost-
benefit analysis is not appropriate for mitigation and prevention 
programs, and OMB has not given FEMA guidelines on what factors will be 
used in the future.
    I am concerned that these same problems will haunt the new Homeland 
Security Department. What factors will OMB use to determine the 
effectiveness of different homeland security programs? I hope Governor 
Ridge will shed some light on this when he appears before us tomorrow.
    The Deputy Director will be responsible to make sure that core 
functions are not neglected. Over the past decade, FEMA has regained 
the confidence of local and state emergency managers. Individuals and 
families rely on FEMA when their lives are torn apart by natural 
disasters. I believe confidence and trust are among America's most 
important assets in our struggle to make our communities safer and more 
secure.
    FEMA has these assets because of it employees. The Deputy Director 
also will be responsible for ensuring that these dedicated Federal 
workers have the resources, training, and support necessary to do their 
jobs. Likewise, FEMA's core missions are too important to take the best 
and most experienced staff away from traditional disaster response and 
mitigation to fill new homeland security activities.
    Mr. Brown, thank you again for your dedication and willingness to 
serve your nation. You have a tough road ahead. If we are to use the 
parallel between this reorganization and the creation of the Department 
of Defense in 1947, we must remember that it took years, even decades, 
to shape a truly integrated armed forces. Unfortunately, we do not have 
years to reshape how our country prepares for terrorism.
    We can, and should, pass legislation to create a homeland security 
department. However, we must remember that the issue is not a new 
Federal department, but what is most effective in protecting Americans.

    Chairman Lieberman. Mr. Brown, our Committee rules require 
that all witnesses at nomination hearings give their testimony 
under oath, so at this point, I would ask you to please stand 
and raise your right hand.
    Do you solemnly swear to tell the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Brown. I do.
    Chairman Lieberman. Thank you. Please be seated. Mr. Brown, 
do you have a statement that you would like to make at this 
time?
    Mr. Brown. A very short statement, Mr. Chairman.
    Chairman Lieberman. Please proceed.

TESTIMONY OF MICHAEL D. BROWN \1\ TO BE DEPUTY DIRECTOR OF THE 
           FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

    Mr. Brown. Thank you, Mr. Chairman, Senator Akaka, and 
Senator Bunning. It is truly an honor to be here today. I am 
especially proud to be joined today by so many people from 
FEMA. I really consider them to be my friends after a year and 
a half or so of working there. The people at FEMA are truly 
dedicated to doing a good job, truly dedicated to fulfilling 
the mission of that agency, and truly dedicated to being the 
best public servants that they can. The fact that some of them 
showed up today is very meaningful to me and I appreciate their 
being here.
---------------------------------------------------------------------------
    \1\ Biographical and professional information appears in the 
Appendix on page 17.
     Pre-hearing questions and responses appear in the Appendix on page 
62.
     Questions for the Record and responses appear in the Appendix on 
page 95.
---------------------------------------------------------------------------
    I am also very grateful for my wife being here today. As 
all of you know, public service sometimes can cause a heavy 
toll in terms of just relationships, in terms of the workload, 
in terms of what the undertaking is that we do in being public 
servants, and my wife has followed me throughout my career and 
has been very supportive, at times questioning me, at times 
prodding me, at times looking at me with that strange look on 
her face like, ``What are you doing now?'' [Laughter.]
    Mr. Brown. But throughout all of it, she has been very 
supportive, so I would like to introduce my wife, Tamara, and 
just tell you how much I appreciate her being here today.
    Chairman Lieberman. Thank you for being here, Mrs. Brown. 
All of us are familiar with that strange spousal look that Mr. 
Brown referred to. ``What are you doing now?'' I have seen that 
a few times at home. [Laughter.]
    Mr. Brown. I am very grateful to President Bush for 
nominating me to this position. Like you, I believe public 
service is an honorable path and an honorable career and I am 
fortunate to have this opportunity to contribute and I am 
honored that I have been asked to serve. I am especially 
honored that I have been asked to serve at this incredibly 
interesting time in our country's history.
    I am also very pleased that I was introduced by two, I 
think, very unique members of the U.S. Senate, the only 
veterinarian in the Senate and the only Senator I know that 
when I am traveling through Colorado and I see a Harley 
Davidson drive by, I pull down my glasses to see if it is 
Senator Campbell or not. So two of the most unique Senators in 
this institution have introduced me today and I am very honored 
by that.
    I am also honored by the fact that my friend, Joe Allbaugh, 
whom I have known for some 25 years, has asked me to serve with 
him. Our friendship goes back many years, but that personal 
history pales when you put it in the context of the past 9 
months. It is during times such as this that we learn a lot 
about ourselves, our families, our friends, and everyone else, 
and how much we cherish them.
    I have been saying a lot of thank yous, and that is because 
FEMA is a terrific agency with an inspiring mission. FEMA cuts 
across political and philosophical lines. It is an agency 
people can agree on. They respect our mission. They understand 
the challenges that the mission represents.
    Mr. Chairman, both as Chairman of this Committee and as a 
member of our EPW Subcommittee, you know what a broad reach 
that we have in this agency, for example, from disaster 
response to fire grants, from the President's first responder 
grants to supplementing homeless service providers, from safety 
near chemical storage sites to safety near earthen dams, from 
disaster mitigation to safety around nuclear power plants, from 
the Cerro Grande Fire Claims Office to flood insurance maps. 
That covers a lot of ground and requires as much energy as it 
does expertise.
    In short, we at FEMA have a lot of responsibility, but we 
are also blessed with partners who are the best in America. 
Some of those partners that we work with include State and 
local governments at all levels, communities, homeowners, 
nonprofits, charitable groups, emergency managers, fire 
fighters, and all of the other first responders.
    As you can see, we are part of a terrific team. Contrary to 
Groucho Marx's theory on club memership, it is the kind of club 
of which you would want to be a member. We have a lot on our 
plate and a lot more coming to our plate, but through this 
work, we are also blessed to see firsthand on a regular basis 
the very best that this country has to offer.
    I have now been at FEMA for just over a year as General 
Counsel and Chief Operating Officer. It has been a tumultuous 
time, but also a time of great hope and a time of great 
possibility. I want to assure you that if I am confirmed as 
Deputy Director, I will work hard to maintain FEMA's standard. 
We have worked hard to gain a reputation as dependable 
partners, and I want to not only maintain that record, but to 
improve on that record, also.
    I pledge with all sincerity to work with this Committee and 
the Congress to strengthen the agency, its dedicated staff, and 
the service that we provide to people most in need of our help. 
Working together, I believe all things are possible.
    I thank the Committee for your time and your attention and 
I will be happy to answer any questions that you have.
    Chairman Lieberman. Thanks very much, Mr. Brown.
    I am going to ask you some questions first, that we ask of 
all nominees. Is there anything you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Brown. There are none, Senator.
    Chairman Lieberman. Do you know of anything personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging your responsibilities as Deputy Director 
of FEMA?
    Mr. Brown. No, sir.
    Chairman Lieberman. And do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Brown. Absolutely.
    Chairman Lieberman. Thank you very much.
    Mr. Brown, as we have indicated here today, as much as any 
other agency, FEMA's role will be greatly expanded as we 
reorganize government to prepare for and respond to terrorist 
attacks at home. FEMA, of course, has done an outstanding job 
in working closely with State emergency managers to respond to 
natural disasters.
    However, I know there is a concern among some, including 
some law enforcement officials and regional councils of 
government, that FEMA sticks pretty closely, if I can put it in 
the vernacular, to its own network of State emergency 
management personnel and local emergency management personnel. 
Given FEMA's expanding mission, what would you intend to do to 
expand FEMA's network and to reach out to these other groups 
that you may have more contact with than you have had in the 
past?
    Mr. Brown. I think we have already started down that path, 
Senator. Director Allbaugh met, I think, possibly 30 days ago 
or so with a group of law enforcement officials and literally 
sat down with them at Tortilla Coast in a room. I envisioned a 
room with a chair in the middle, the way he describes it, and a 
single light bulb over his head and they grilled him 
extensively about the relationship that FEMA has with law 
enforcement agencies. He very forthrightly told them that our 
partnership has to be with all agencies responding to the 
disaster, all first responders, and the impression I had from 
my conversation with him is they walked away feeling much 
better about that.
    We also have reached out to FBI Director Mueller and had a 
meeting with him a couple of weeks ago and they have agreed to 
detail an FBI Special Agent to our FEMA Operations Center so 
that as we do our planning, as we do our preparations, we will 
have that law enforcement component as a part of our emergency 
support team.
    So I think we are already doing that. My pledge would be 
that just as we have good partnering relationships with State 
and local government, I will do my best to expand that 
partnership attitude, those partnership relationships to all 
aspects of law enforcement that may be involved in first 
response.
    Chairman Lieberman. Thank you very much. That is a good 
answer.
    In the homeland security bill that this Committee reported 
out about a month ago, FEMA would be the key component in the 
Emergency Preparedness and Response Directorate, as we called 
it in that bill, of the new Department of Homeland Security. 
That particular directorate would be responsible for all of the 
disaster response activities currently handled by FEMA as well 
as the Federal, State, and local planning, training, and 
exercise programs and the coordination that needs to occur 
between the Federal agencies, State and local governments, and 
the private sector.
    The role envisioned for FEMA in the administration's 
proposal, it seems to me, is quite similar to the one in our 
Committee bill, but in addition, the administration in its bill 
would create a Chemical, Biological, Radiological, and Nuclear 
Countermeasures Directorate. Among that directorate's 
responsibilities would be, ``to direct exercises and drills for 
Federal, State, and local chemical, biological, radiological, 
and nuclear response teams and plans.''
    I am going to ask this question on Thursday, or I am sure 
somebody will, of Governor Ridge, but the question that I want 
you to give a response to, and think about further if you would 
like, is whether the responsibilities of this fourth 
directorate that the administration bill proposes, to the 
extent that it would focus on training and exercises for and in 
response to catastrophic terrorism, may duplicate what FEMA 
would be doing in the Emergency Preparedness Directorate. So I 
am wondering whether those responsibilities, separate from what 
I take to be the research and development parts of this new 
directorate, would better be consolidated within FEMA or the 
FEMA-dominated directorate in our Committee bill.
    Mr. Brown. Let me answer the question this way. First and 
foremost, I will support whatever proposal the President 
submits and will work hard to implement that and make certain 
that it works.
    In this respect, Senator, FEMA has what I think is the 
absolute appropriate approach to hazards and it is the all-
hazards approach. And not to be crass, but on September 11, if 
the planes had gone into the towers because of a failure of the 
air traffic control system or whether they had gone into the 
towers because of the terrorists who were flying them into the 
towers, FEMA's response would have been the same. It is the 
all-hazards approach. We train first responders. We train State 
and local governments. We build the partnership such that 
regardless of the cause of the disaster, our response is the 
same, and we will make certain that we are well prepared for 
whether the tanker truck carrying ammonium nitrate falls over 
because of a flat tire or falls over because someone shoots at 
the tire, that our response is adequate and geared to solving 
whatever the response needs to be for that incident.
    So in terms of the restructuring, I think as long as FEMA 
continues its all-hazard approach, its all-hazards mission, 
that we will be able to fulfill whatever mission it is that the 
President and Congress give us to fulfill. Now, we currently 
have the CSEP (Chemical Stockpile Emergency Preparedness) and 
the REP (Radiological Emergency Preparedness) programs in which 
we have some of those training responsibilities already. We 
would continue those. I think we have a good track record in 
that regard, so we would, not to continue repeating myself, but 
we would continue to take the all-hazards approach regardless 
of what responsibilities we are given in some final version of 
the bill.
    Chairman Lieberman. I urge you to continue to think about 
that. We are all together. We are all trying to figure out in a 
very new circumstance what the best way is to organize the 
government's response. It is just the question was raised in my 
mind whether parts of the functions of this new CBRN 
Directorate, frankly, would be better in the other directorate 
with FEMA, and I encourage a continued dialogue on that.
    Mr. Brown. I think there will be a lot of dialogue in that 
regard.
    Chairman Lieberman. Sure. Thank you. Senator Bunning.
    Senator Bunning. Yes. In following up on the Chairman's 
questions, has FEMA's relation with emergency responders 
changed since September 11 or has the focus of the agency 
changed? Are you doing more with local responders than you used 
to?
    Mr. Brown. I do not think so. Let me answer the question 
this way, Senator. People often ask me what has happened, what 
has changed in terms of our function since September 11 and I 
answer, not flippantly but very seriously, everything has 
changed and nothing has changed.
    Everything has changed only in the sense that the intensity 
with which we approach our mission, the intensity with which 
the employees who are here today and the employees back in 
headquarters and throughout all the regions, that they approach 
their job has taken on a new meaning to them. It is much more 
acute, much more intense in terms of making sure that we are 
prepared in every possible sense of that word.
    But in the actual implementation of that preparation, 
nothing has changed. We are continuing to build the 
partnerships. We are continuing to make certain that our 
relationships with all of the partners of State and local 
government are in place and that it is a good working 
relationship.
    We have brought on who was going to be the new President of 
the National Emergency Managers Association into FEMA as an 
employee. We are reaching out to law enforcement. We are 
reaching out to--I gave a speech, I forget, it was the 
Association of Supreme Court Justices and made it reach out to 
them and said, how many of you have talked to your State 
emergency managers or your State homeland security director? 
Nobody in the room raised their hand. But it was the point of 
trying to get them to start building those partnerships that we 
are already good at and trying to expand those partnerships as 
much as possible.
    Senator Bunning. I can just say to you that the 
relationship between the local responder and FEMA has changed 
in Kentucky because they are more friendly doing their job. 
They always did their job, but the response has been a more 
friendly response and a willingness to cooperate. I want to 
make sure that if you are put in homeland security, that this 
function that is placed in homeland security does not get 
someone involved that does not have that same attitude as far 
as responding is concerned.
    Mr. Brown. Well, Senator, I will make this pledge to you, 
that as long as I am around, those partnerships will continue 
to grow and expand as much as possible. The partnerships, both 
with our State and local partners and with our Federal 
partners, are exactly what makes FEMA successful.
    Senator Bunning. You were in city government like I was 
before I became a State Senator and a Member of the House and a 
Member of the U.S. Senate. You were an Assistant City Manager 
in Edmond, Oklahoma, one of my old hangouts when I managed the 
Oklahoma City 89-ers, in the mid-1970s, actually. So was I, 
1976. How has the responsibility and focus of local officials 
changed since September 11, the relationship to FEMA?
    Mr. Brown. First of all, I would say I probably went to 
some of those ballgames, but I am sure I never screamed at the 
manager.
    Senator Bunning. Yes. I can remember you specifically doing 
that. [Laughter.]
    Mr. Brown. I never did that. [Laughter.]
    State and local governments are looking to us for 
leadership. They are looking to FEMA to tell them where are the 
holes in our response plans? Where are the holes in our mutual 
aid agreements? What incentives can you provide us to fill 
those holes?
    And I think as long as we continue those relationships--we 
did an assessment immediately following September 11 at the 
request of Governor Ridge, Director Allbaugh, and the President 
and we went to the State and local governments and said, tell 
us what your greatest needs are. Tell us what your greatest 
vulnerabilities are. And because they trust us, they were 
willing to give us that unabashed response about: In Oklahoma, 
our hole is here. In Colorado, our vulnerability is here. In 
Kentucky, we have a weakness here that we need to get filled. 
And so they looked to us for that kind of leadership and I 
think will continue that. I do not think that will change 
regardless of where the Congress and the President end up 
putting the FEMA structure.
    Senator Bunning. In other words, you will be able to do 
your two main functions, to respond to natural disasters and 
prepare for any terrorist attack, no matter where you are 
placed?
    Mr. Brown. That is my intent, and I think that is a true 
statement, that regardless of where we are placed, our 
coordination will stay the same and we will be able to do that 
job as well as we have, and hopefully even better. Under the 
proposed structure, I think it would be even better because the 
partners we now work with will now be part of our organization.
    Senator Bunning. This will be my last question, Mr. 
Chairman.
    Chairman Lieberman. No problem.
    Senator Bunning. You mentioned in a speech the need for a 
national accreditation system for emergency responders. Do you 
think that is necessary, to put a grade on our responders or to 
say that this group is better than that group, or how did you 
mean that?
    Mr. Brown. Accreditation is probably not the proper word, 
but some sort of certification that says this group has been 
through this type of training and they are able to do A, B, and 
C, so that when you have a mutual aid agreement and there is a 
requirement that says we need additional response from 
somewhere else, we know we can turn to your team and your folks 
and they will have the necessary training that we need for that 
particular incident that is taking place.
    Senator Bunning. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Bunning. Senator 
Bennett, good morning.
    Senator Bennett. Good morning, Mr. Chairman. Good morning, 
Mr. Brown.
    Mr. Brown. Good morning, Senator.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. We appreciate your being here. I must say 
for the record what I have said privately but cannot really say 
too often, how grateful we in Utah are to FEMA and the other 
agencies that were involved in providing security for the 
Olympics. As the head of security for the Olympics said to me 
as I stood in the command center where all of the agencies were 
present, he said, ``Senator, this is boring, and in the 
security business, boring is good.'' [Laughter.]
    I think we saw in the Olympics a model that can be used now 
for the Homeland Security Department, as every agency who was 
involved in providing security for the Olympics had a 
coordinated role and obvious stake in seeing to it that it 
stayed boring. It was amazing, the contrast, for example, with 
the Atlanta Olympics, which took place against a backdrop of no 
terrorism around the world, at least as far as Americans were 
concerned, and the Utah Olympics that took place against the 
backdrop of September 11. The difference was stark. Atlanta had 
bomb scares in the hundreds every day. In the Salt Lake 
Olympics, we had less than 100 bomb scares through the entire 
17 days. So that was an example of how different agencies can 
work together and provide security.
    The concern I have with respect to the creation of this new 
department is what happens to your other missions. FEMA has 
missions other than security missions. If the primary focus of 
the new department is homeland security and that becomes the 
primary focus of FEMA, what happens to your other responses in 
situations that have nothing to do with homeland security and 
homeland defense? Have you given any thought to that as you 
have looked to your new home?
    Mr. Brown. I have given considerable thought to it, 
Senator, and I am honestly convinced that it really has no 
detrimental effect to our all-hazards approach that we 
currently have. I sincerely believe it will enhance our ability 
to convince all of our partners, State, local, and Federal 
partners, that the whole concept of having an all-hazards 
approach is the best way to secure the homeland.
    If we are prepared against, and again, I give the example, 
another example of the all-hazards approach is if we are 
prepared for responding to the breaking of a dam, regardless of 
the cause of the breaking of that dam, we have secured the 
homeland. If we are prepared to respond to wildfires occurring 
in Colorado, then we have secured the homeland regardless of 
the cause of those wildfires.
    It is the all-hazards approach that is developed solely on 
these partnerships that I think will be enhanced by the new 
structure. I do not think we will lose that core mission at 
all.
    Senator Bennett. The reason for my concern, and the 
Chairman has heard me on this subject before, I was present at 
the creation of the Department of Transportation, where we did 
pretty much the same thing, brought a number of agencies in 
from a number of different places, and frankly, the Department 
did not function for years as it should have functioned because 
the Coast Guard and the FAA and the Urban Mass Transit 
Administration and the highway people all had very different 
cultures and different attitudes and they were not used to 
thinking in terms of a single Department focused on 
transportation and it took years for the cultures to change.
    I am concerned about that happening here. I am delighted 
with your answer, which does demonstrate that you have given 
some thought to it, and my only counsel to you is continue to 
look in that direction because putting together this new 
department is going to be very difficult.
    Mr. Brown. If I can be so bold as to offer a little further 
insight into my thinking, FEMA is in essence being taken lock, 
stock, and barrel and placed into the new organization, and I 
think because, again--I know I am repeating myself--but because 
of our partnership relationships, it is my belief that our 
culture, building partnerships and working together, will 
probably, in my way of thinking, permeate the new organization.
    Senator Bennett. Well, let us hope.
    I congratulate you on your nomination. I intend to support 
it with great vigor and look forward to working with you. Thank 
you, Mr. Chairman.
    Mr. Brown. Thank you, Senator.
    Chairman Lieberman. Thank you, Senator Bennett.
    Just a couple more questions that have actually come in to 
us from others. I received some communications from a member of 
the New York City Council, Peter Valone. I know you are aware, 
Mr. Brown, that discussions have been going on between FEMA and 
the City of New York regarding the City's request for 
reimbursement of costs incurred by the police department in 
connection with the attacks on the World Trade Center. I just 
wonder if you could report to us on the status of those 
discussions, if you know them at this point.
    Mr. Brown. I can report on that generally and specifically, 
Mr. Chairman. We have had ongoing discussions. I have set up 
within FEMA a New York Special Task Force that all these 
issues, such as the reimbursement for the police, come to. I 
have included the Inspector General of FEMA in those 
discussions so that whatever decision that we make, the 
Inspector General has had a chance to look at our policy 
direction that we are going to make sure he is comfortable with 
it. We are coordinating all those decisions with the White 
House and I think we are very close in terms of New York City 
police overtime, of having a mechanism where we can do those 
reimbursements.
    Chairman Lieberman. That is encouraging. I thank you for 
that and I know that will mean a lot to folks in New York.
    Finally, there has been, as you know, obviously, increased 
scrutiny lately on the evacuation plans for nuclear plants. 
That is of some significance to us in Connecticut because we 
have four nuclear plants, two active and two that are 
decommissioned. There has been some concern expressed in 
Connecticut about whether the evacuation plans are adequate to 
ensure the safety of people living near the plants should there 
be an accident or a terrorist attack.
    I also note that a member of the New York State Assembly, 
Richard Brodsky, has conducted hearings into the adequacy of 
the evacuation plans for a particular plant in New York, namely 
the Indian Point plant, and has filed a petition asking FEMA to 
reconsider and disapprove the evacuation plan which has been in 
place since 1996.
    As Deputy Director, you will be responsible for considering 
the petition, so I wanted to ask you generally how you see your 
role in investigating the adequacy of these evacuation plans 
for nuclear power plants in the United States.
    Mr. Brown. I think my role is a very serious one. I think 
the agency's role is a very serious one, that we should not 
just wait for someone to petition or request that we evaluate, 
that those types of plans should be evaluated on an ongoing 
basis. It would be my intent to somehow implement the ongoing 
evaluation so we do not have to look in hindsight and say, 
gosh, we wish we had looked at that. We should be looking at 
that all the time to make sure they are adequate, and I will 
pledge to you that we will certainly do that.
    Chairman Lieberman. I appreciate that, obviously, from the 
point of view of Connecticut. I am not asking for what your 
response will be, but do you have any sense of how you will 
handle this petition from New York about a review of the Indian 
Point plant?
    Mr. Brown. In all honesty, I do not. I just received it 
yesterday----
    Chairman Lieberman. You did?
    Mr. Brown [continuing]. When I got back into the States and 
I just looked at it for the first time yesterday.
    Chairman Lieberman. Understood. We will continue to want to 
be in dialogue with you on this, as well, and I appreciate the 
commitment that you made to be involved in ongoing review of 
these plans because it is obviously critical.
    Senator Bunning, do you have any other questions?
    Senator Bunning. No, no more questions.
    Chairman Lieberman. Mr. Brown, I thank you very much. I 
will certainly support your nomination. I will do my best to 
move it through the Committee as soon as possible so we can 
have you fully and legally at work in your new position. In the 
meantime, I thank you very much. I thank your family for their 
support of you, and at this point, we will adjourn the hearing.
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1311.004

[GRAPHIC] [TIFF OMITTED] T1311.005

[GRAPHIC] [TIFF OMITTED] T1311.006

[GRAPHIC] [TIFF OMITTED] T1311.007

[GRAPHIC] [TIFF OMITTED] T1311.008

[GRAPHIC] [TIFF OMITTED] T1311.009

[GRAPHIC] [TIFF OMITTED] T1311.010

[GRAPHIC] [TIFF OMITTED] T1311.011

[GRAPHIC] [TIFF OMITTED] T1311.012

[GRAPHIC] [TIFF OMITTED] T1311.013

[GRAPHIC] [TIFF OMITTED] T1311.014

[GRAPHIC] [TIFF OMITTED] T1311.015

[GRAPHIC] [TIFF OMITTED] T1311.016

[GRAPHIC] [TIFF OMITTED] T1311.017

[GRAPHIC] [TIFF OMITTED] T1311.018

[GRAPHIC] [TIFF OMITTED] T1311.019

[GRAPHIC] [TIFF OMITTED] T1311.020

[GRAPHIC] [TIFF OMITTED] T1311.021

[GRAPHIC] [TIFF OMITTED] T1311.022

[GRAPHIC] [TIFF OMITTED] T1311.023

[GRAPHIC] [TIFF OMITTED] T1311.024

[GRAPHIC] [TIFF OMITTED] T1311.025

[GRAPHIC] [TIFF OMITTED] T1311.026

[GRAPHIC] [TIFF OMITTED] T1311.027

[GRAPHIC] [TIFF OMITTED] T1311.028

[GRAPHIC] [TIFF OMITTED] T1311.029

[GRAPHIC] [TIFF OMITTED] T1311.030

[GRAPHIC] [TIFF OMITTED] T1311.031

[GRAPHIC] [TIFF OMITTED] T1311.032

[GRAPHIC] [TIFF OMITTED] T1311.033

[GRAPHIC] [TIFF OMITTED] T1311.034

[GRAPHIC] [TIFF OMITTED] T1311.035

[GRAPHIC] [TIFF OMITTED] T1311.036

[GRAPHIC] [TIFF OMITTED] T1311.037

[GRAPHIC] [TIFF OMITTED] T1311.038

[GRAPHIC] [TIFF OMITTED] T1311.039

[GRAPHIC] [TIFF OMITTED] T1311.040

[GRAPHIC] [TIFF OMITTED] T1311.041

[GRAPHIC] [TIFF OMITTED] T1311.042

[GRAPHIC] [TIFF OMITTED] T1311.043

[GRAPHIC] [TIFF OMITTED] T1311.044

[GRAPHIC] [TIFF OMITTED] T1311.045

[GRAPHIC] [TIFF OMITTED] T1311.046

[GRAPHIC] [TIFF OMITTED] T1311.047

[GRAPHIC] [TIFF OMITTED] T1311.048

[GRAPHIC] [TIFF OMITTED] T1311.049

[GRAPHIC] [TIFF OMITTED] T1311.050

[GRAPHIC] [TIFF OMITTED] T1311.051

[GRAPHIC] [TIFF OMITTED] T1311.052

[GRAPHIC] [TIFF OMITTED] T1311.053

[GRAPHIC] [TIFF OMITTED] T1311.054

[GRAPHIC] [TIFF OMITTED] T1311.055

[GRAPHIC] [TIFF OMITTED] T1311.056

[GRAPHIC] [TIFF OMITTED] T1311.057

[GRAPHIC] [TIFF OMITTED] T1311.058

[GRAPHIC] [TIFF OMITTED] T1311.059

[GRAPHIC] [TIFF OMITTED] T1311.060

[GRAPHIC] [TIFF OMITTED] T1311.061

[GRAPHIC] [TIFF OMITTED] T1311.062

[GRAPHIC] [TIFF OMITTED] T1311.063

[GRAPHIC] [TIFF OMITTED] T1311.064

[GRAPHIC] [TIFF OMITTED] T1311.065

[GRAPHIC] [TIFF OMITTED] T1311.066

[GRAPHIC] [TIFF OMITTED] T1311.067

[GRAPHIC] [TIFF OMITTED] T1311.068

[GRAPHIC] [TIFF OMITTED] T1311.069

[GRAPHIC] [TIFF OMITTED] T1311.070

[GRAPHIC] [TIFF OMITTED] T1311.071

[GRAPHIC] [TIFF OMITTED] T1311.072

[GRAPHIC] [TIFF OMITTED] T1311.073

[GRAPHIC] [TIFF OMITTED] T1311.074

[GRAPHIC] [TIFF OMITTED] T1311.075

[GRAPHIC] [TIFF OMITTED] T1311.076

[GRAPHIC] [TIFF OMITTED] T1311.077

[GRAPHIC] [TIFF OMITTED] T1311.078

[GRAPHIC] [TIFF OMITTED] T1311.079

[GRAPHIC] [TIFF OMITTED] T1311.080

[GRAPHIC] [TIFF OMITTED] T1311.081

[GRAPHIC] [TIFF OMITTED] T1311.082

[GRAPHIC] [TIFF OMITTED] T1311.083

[GRAPHIC] [TIFF OMITTED] T1311.084

[GRAPHIC] [TIFF OMITTED] T1311.085

                                   - 

</pre></body></html>
